               While Progress Toward Earlier Intervention
               With Delinquent Taxpayers Has Been Made,
               Action Is Needed to Prevent Noncompliance
               With Estimated Tax Payment Requirements

                                  February 2004

                       Reference Number: 2004-30-040




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    February 17, 2004




       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION
                      COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - While Progress Toward Earlier Intervention
                                     With Delinquent Taxpayers Has Been Made, Action Is
                                     Needed to Prevent Noncompliance With Estimated Tax
                                     Payment Requirements (Audit # 200230041)


       This report presents the results of our review to determine whether the Internal
       Revenue Service (IRS) has effective processes for achieving timely intervention when
       an underpayment or nonpayment of income taxes, Federal Tax Deposits1 (FTD), and/or
       estimated taxes2 is identified. Early intervention is critical for the IRS, as the nation’s tax
       collection agency, because collection theory holds that the earlier a debtor is contacted
       for payment, the greater the likelihood that all or some of the debt will be paid. Early
       intervention to encourage and assist taxpayers to more promptly resolve their tax
       liabilities was one of the goals of the former IRS Commissioner,3 as he tried to address
       the amount of outstanding tax liabilities that had grown to $287 billion as of
       December 2002.


       1
         Employers are required to regularly deposit the income taxes withheld from their employees’ earnings, as well as
       the employer and employee share of Social Security and Medicare taxes, with a financial institution that is an
       authorized depositary for Federal taxes. A business’ deposit schedule for a calendar year is determined annually
       from the total taxes reported on Employer’s Quarterly Federal Tax Returns (Form 941) in a 4-quarter lookback
       period beginning on July 1 from 2 years earlier and ending on June 30 of the prior year.
       2
         Estimated tax is the method used to pay taxes on income not subject to withholding. The payments are generally
       required on a quarterly basis.
       3
         Charles O. Rossotti was the IRS Commissioner for a 5-year term that ended November 2002.
                                                        2

In summary, over the course of nearly the past decade, the IRS has taken a number of
actions, and is planning still others, to improve its ability to react more quickly to an
actual or potential tax debt. The completed actions include shortening the collection
notices cycle, implementing predictive dialing technology for making outbound
telephone calls on tax delinquencies, and completing a major reorganization to align
with the IRS’ major customer segments. Other actions in progress include migrating
toward a risk-based approach to collecting delinquent taxes and modifying the FTD
Alert4 criteria to focus on fewer, better-targeted taxpayer contacts.
For two reasons, however, it is difficult, if not impossible, to assess the cumulative effect
that these actions have had on the IRS’ Collection operations. The first reason is the
decrease in Collection function staffing. The Full-Time Equivalents (FTE)5 allocated to
Collection function operations declined from 12,950 in Fiscal Year (FY) 1997 to 11,349
in FY 2002. Second, collection enforcement activities were significantly affected by the
enactment of the IRS Restructuring and Reform Act of 1998 (RRA 98).6 Between
FYs 1997 and 1999, for example, the number of liens filed declined from about 544,000
to about 168,000; the number of levies declined from almost 3.7 million to about
500,000; and the number of seizures declined from about 10,000 to only 161. Although
enforcement activity was increasing by FY 2002, only the number of liens filed was
approaching the pre-RRA 98 levels.
Estimated tax is the method used by individual taxpayers to pay taxes on nonwage
income on a quarterly basis. About 12 million taxpayers made estimated tax payments
totaling $183 billion for Tax Year (TY) 2001. However, there is significant taxpayer
noncompliance with estimated tax requirements. For each tax year from 1995 through
2000, between 5.7 million and 6.8 million individual taxpayers were assessed penalties
for making insufficient or late estimated tax payments. Many of these taxpayers also
filed tax returns reporting unpaid taxes that resulted in the IRS having to take costly
collection actions.
Five factors contribute to this noncompliance. First, the tax law does not require tax
withholding on nonwage sources of income. Second, the quarterly due dates
prescribed by law for making estimated tax payments do not consistently coincide with
the calendar quarters and are irregularly spaced from 61 to 122 days apart. Third, the
estimated tax penalty rate, which is currently only 4 percent, may not sufficiently deter
payment noncompliance. Fourth, the IRS has no early intervention programs to identify
taxpayers that stop making estimated tax payments or that make insufficient or untimely
payments. Finally, the IRS has experienced little success (i.e., only about 1 in
200 taxpayers) in encouraging the use of electronic payment options for making
estimated tax payments. Without proactive efforts by the IRS, the noncompliance with


4
  The FTD Alert Program is an existing early intervention process which identifies taxpayers that appear to be
behind in their deposits of trust fund taxes before their quarterly employment tax returns are due to be filed.
5
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2002, 1 FTE was equal to 2,088 staff hours.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                              3

estimated taxes can be expected to worsen in the years to come, since the amount of
income from nonwage sources of income is growing significantly faster than that from
wages.
As a long-term solution to the estimated tax payment noncompliance, we recommended
the Commissioners of the Large and Mid-Size Business (LMSB), Small Business/
Self-Employed (SB/SE), and Wage and Investment (W&I) Divisions explore developing
a system of mandatory withholding of income taxes from nonemployee compensation
paid to independent contractors by certain types of businesses for possible inclusion in
a legislative proposal to the Department of the Treasury. We also recommended
legislative proposals to require estimated tax payments to be made on a monthly basis
and to change the manner in which the estimated tax penalty rate is determined to
ensure it serves as a more effective deterrent to noncompliance with estimated tax
payment requirements.
For the near term, we recommended the Directors, Compliance, SB/SE and
W&I Divisions, and the Director, Customer Assistance, Relationships, and Education,
W&I Division, develop an estimated tax payment reminder notice that can be sent at
midyear to those taxpayers that were assessed estimated tax penalties in the prior tax
year and had made no estimated tax payments for the first 6 months of the current tax
year or that had made substantially smaller or untimely payments during the first
6 months. We also recommended the Director, Taxpayer Education and
Communication, SB/SE Division, improve the promotion of electronic tax payments by
including the enrollment form for the Electronic Federal Tax Payment System (EFTPS)
in the estimated tax packages mailed to taxpayers, expanding the brief explanation of
the EFTPS in Tax Withholding and Estimated Tax (Publication 505), and amending
those IRS instructions and publications applicable to estimated tax payments that do not
sufficiently emphasize that the EFTPS is offered to taxpayers as a free service by the
Department of the Treasury.
Management’s Response: The Commissioner, SB/SE Division, provided a detailed
response to our draft report, advising that the Director, Field Specialists, LMSB Division,
had agreed to explore the feasibility of developing a system of mandatory withholding of
income taxes from nonemployee compensation paid to independent contractors in large
and mid-size businesses. The Director, Field Specialists, will explore this action in
coordination with program managers in the SB/SE and W&I Divisions and the LMSB
Division Counsel. If developing a system of mandatory withholding is feasible, the
Director, Field Specialists, will draft and coordinate a legislative proposal with the Office
of Legislative Affairs for consideration by the Department of the Treasury.
The Commissioner, SB/SE Division, agreed with our recommendation to consider
improving the promotion of the electronic tax payments. An E-Submissions Messaging
Team is currently reviewing IRS products to ensure EFTPS benefits are specifically
detailed and highlighted as a “free” service offered by the Department of the Treasury.
This group will continue to review new ways to enhance Estimated Tax for Individuals
(Form 1040-ES) taxpayer compliance, including a proposal to add a coded enrollment
                                           4

form for the EFTPS in the U.S. Individual Income Tax Return (Form 1040) tax package
to track the number of enrollments submitted through the paper enrollment process.
The Commissioner, SB/SE Division, disagreed with our recommendation to submit a
legislative proposal requiring monthly estimated tax payments on the 15th day of each
month. The Commissioner stated that, although there may be some benefit to
establishing regular quarterly time periods for individual estimated tax payments,
monthly estimated tax payments would increase burden and complexity for both
compliant and noncompliant taxpayers. The Commissioner added that increasing the
number of payments would increase both the complexity of Underpayment of Estimated
Tax by Individuals, Estates, and Trusts (Form 2210) and the difficulty of computing
estimated tax penalties for noncompliant taxpayers.
The Commissioner, SB/SE Division, disagreed with our recommendation to submit a
legislative proposal to change the manner in which the estimated tax penalty rate is
determined, stating the IRS had developed a legislative proposal concerning the
estimated tax penalty in July 2001. The proposal recommended the Congress raise the
minimum underpayment amount on which penalties are assessed for failure to make
estimated tax payments. It also proposed to change the rate at which the estimated
penalty is determined. The proposed changes would apply to tax years beginning after
December 31, 2003.
The Commissioner, SB/SE Division, disagreed with our recommendation to develop an
estimated tax reminder notice that can be sent at midyear to those taxpayers that were
assessed estimated tax penalties in the prior tax year and were falling behind with
estimated tax payment requirements. The Commissioner stated the IRS had initiated a
project in 2000 to determine whether a “soft letter” would significantly increase FTD
payment compliance. Based on the results of that study, the Commissioner believes a
reminder notice would have little or no impact on estimated tax payment compliance.
Finally, the Commissioner, SB/SE Division, disagreed with our estimate that penalty and
interest could be reduced by $2.1 billion over 5 years if a 25 percent increase in
payment compliance was achieved, stating this percentage was not based on any
empirical data. The Commissioner also disagreed with our estimate that sending
reminder notices to taxpayers assessed estimated tax penalties could reduce collection
costs by $12.9 million over 5 years, stating that, based on the results of the FTD “soft
letter” study, there would be no collection cost savings. The Commissioner added that
our estimate did not reflect the administrative cost related to adding a midyear reminder
notice. Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: Given the significant increase in nonwage income and the
extensive noncompliance with making estimated tax payments, we continue to believe
taxpayers could benefit from a system of regularly scheduled monthly payment dates.
The fact that nearly one-third of the taxpayers that make estimated tax payments incur
penalties strongly suggests the current quarterly payment system, in place since 1943,
is not working effectively. Monthly payment intervals are an established and common
business practice in the private sector. Most Americans are already used to making
monthly payments on their home mortgages, rent, car loans, credit cards, and utilities.
                                            5

In addition, many homeowners have mortgage escrow accounts set up to have money
held to pay property taxes and insurance premiums so they do not have to worry about
coming up with several large lump sum payments, each with different due dates,
throughout the year. Also, taxpayers that cannot pay the full amount with their
individual income tax returns can make arrangements with the IRS to make monthly
installment payments. We believe the Commissioner’s concern with the taxpayer
burden associated with a monthly payment system would be alleviated with the
successful promotion of electronic payments. In addition, the IRS instructions for
Form 2210 state that taxpayers do not need to file Form 2210 in most cases if an
estimated tax penalty is due and that, because the Form is complicated, the IRS
strongly encourages the taxpayer to let the IRS figure the penalty. Finally, substantial
taxpayer burden would be reduced if the monthly payment system helped taxpayers
avoid estimated tax penalties.
We also believe our recommendation to change the manner in which the estimated tax
penalty rate is determined has merit to ensure the penalty serves as a more effective
deterrent to noncompliance with estimated tax payment requirements. The legislative
proposal cited by the Commissioner, SB/SE Division, would raise the minimum
underpayment amount on which penalties are assessed for failure to make estimated
tax payments and would apply the underpayment rate on a daily basis. While applying
the underpayment rate on a daily basis would slightly increase the amount of the
penalty, the increase would not be sufficient to serve as an effective deterrent to
avoiding estimated tax payments.
We believe the concept of a midyear reminder notice to taxpayers that have stopped
making estimated tax payments should, at a minimum, be tested. The Commissioner,
SB/SE Division, cited the results of an FTD “soft letter” project as evidence that a
reminder notice would have little or no impact on estimated tax payment compliance.
However, the IRS’ own final report, dated March 2003, on the results of that project
recommended “further study about the effectiveness of the ‘soft letter’ as an early
intervention tool to improve filing and payment compliance may be warranted.” Further,
the FTD “soft letter” was directed to businesses responsible for paying employment
taxes. This customer segment differs from individual taxpayers that are responsible for
making estimated tax payments on their nonwage income.
While the Commissioner, SB/SE Division, is correct that there are no empirical data to
support our assumption that a midyear reminder notice would improve payment
compliance by 25 percent, our estimate that penalties and interest could be reduced by
$412.7 million per year, or $2.1 billion over 5 years, was based on 285,400 taxpayers
becoming payment compliant. These 285,400 taxpayers represented only about
5 percent of the 5.7 million noncompliant taxpayers that incurred estimated tax penalties
in TY 1998. Similarly, our estimate of the cost savings that could be realized through a
25 percent improvement in payment compliance was based on avoiding collection
action on 204,000 taxpayers. Our estimate of the collection cost savings was reduced
by the estimated cost to mail the reminder notices.
                                           6

While we still believe all of our recommendations are worthwhile, we do not intend to
elevate our disagreement concerning these matters to the Department of the Treasury
for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
            While Progress Toward Earlier Intervention With Delinquent Taxpayers
             Has Been Made, Action Is Needed to Prevent Noncompliance With
                            Estimated Tax Payment Requirements




                                                  Table of Contents


Background ............................................................................................... Page 1
Numerous Changes Have Been Made to Achieve
Earlier Intervention With Delinquent Taxpayers......................................... Page 2
Actions Are Needed to Prevent Noncompliance
With Estimated Tax Payment Requirements .............................................. Page 9
         Recommendation 1: ...................................................................... Page 25
         Recommendation 2: ...................................................................... Page 26
         Recommendation 3: ...................................................................... Page 28
         Recommendation 4: ...................................................................... Page 29
         Recommendation 5: ...................................................................... Page 30

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 32
Appendix II – Major Contributors to This Report........................................ Page 35
Appendix III – Report Distribution List ....................................................... Page 36
Appendix IV – Outcome Measures ............................................................ Page 37
Appendix V – Management’s Response to the Draft Report ..................... Page 41
         While Progress Toward Earlier Intervention With Delinquent Taxpayers
          Has Been Made, Action Is Needed to Prevent Noncompliance With
                        Estimated Tax Payment Requirements

                                 The Internal Revenue Service (IRS) is the nation’s tax
Background
                                 collection agency. Its mission is to provide America’s
                                 taxpayers with top-quality service by helping them
                                 understand and meet their tax responsibilities and by
                                 applying the tax law with integrity and fairness to all.
                                 Collecting taxes due the Federal Government has always
                                 been a challenge for the IRS, but in recent years the
                                 challenge has grown. In various testimonies and audit
                                 reports, the General Accounting Office (GAO)1 and
                                 Treasury Inspector General for Tax Administration
                                 (TIGTA)2 have highlighted large and pervasive declines in
                                 the IRS Compliance and Collection programs. Between
                                 Fiscal Years (FY) 1996 and 2001, these programs generally
                                 experienced larger workloads, less staffing, and fewer
                                 numbers of cases closed per employee. By the end of
                                 FY 2001, the IRS was deferring collection action3 on about
                                 one out of every three tax delinquency cases assigned to the
                                 Collection program.4
                                 As of December 2002, the total amount of outstanding tax
                                 liabilities was $287 billion. Approximately $13 billion of
                                 this total has been designated as uncollectible due to the
                                 IRS’ collection and resource priorities, although many of
                                 these accounts could be collected if the taxpayers were
                                 contacted and offered the opportunity to pay either in full or
                                 in installments.
                                 Collection theory holds that the earlier a debtor is contacted
                                 for payment, the greater the likelihood that all or some of
                                 the debt will be paid. Early intervention to encourage and


                                 1
                                   Tax Administration: Impact of Compliance and Collection Program
                                 Declines on Taxpayers (GAO-02-674, dated May 2002); and Major
                                 Management Challenges and Program Risks: Department of the
                                 Treasury (GAO-03-109, dated January 2003).
                                 2
                                   Trends in Compliance Activities Through Fiscal Year 2002 (Reference
                                 Number 2003-30-078, dated March 2003).
                                 3
                                   Deferring collection action means the delinquent account was closed as
                                 currently not collectible although conditions could reopen collection
                                 action, such as receipt of information that the taxpayer had additional
                                 assets that could help to pay off the tax debt.
                                 4
                                   GAO-03-109, January 2003.
                                                                                                 Page 1
           While Progress Toward Earlier Intervention With Delinquent Taxpayers
            Has Been Made, Action Is Needed to Prevent Noncompliance With
                          Estimated Tax Payment Requirements

                                   assist taxpayers to more promptly resolve their tax liabilities
                                   was one of the goals of the former IRS Commissioner.5
                                   To perform this audit, we interviewed management officials
                                   in the Small Business/Self-Employed (SB/SE) Division
                                   offices in New Carrollton, Maryland, and Oxon Hill,
                                   Maryland; analyzed taxpayer account information; reviewed
                                   various IRS reports and studies; and sent questionnaires to
                                   nine state governments concerning their tax collection
                                   techniques and early intervention practices. The responses
                                   received did not reveal any unique practices or techniques
                                   that would benefit the IRS operations.
                                   The audit was performed from November 2002 through
                                   March 2003 and in accordance with Government Auditing
                                   Standards. Some of the data used in this report came from
                                   various IRS reports. We did not verify the accuracy of the
                                   information from those sources. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   Historically, delinquent accounts have generally followed
Numerous Changes Have Been
                                   the same treatment path at the IRS. The collection process
Made to Achieve Earlier
                                   generally began with a series of notices that were sent to
Intervention With Delinquent
                                   taxpayers that did not pay all of their tax liabilities when
Taxpayers
                                   they filed their tax returns.6 If the unpaid taxes were not
                                   resolved during the notice process, the case was sent to the
                                   Automated Collection System (ACS)7 function where
                                   Customer Service Representatives (CSR) initiated and
                                   responded to telephone and/or correspondence contacts with
                                   the taxpayers and third parties, filed liens, and/or took levy
                                   actions to resolve the delinquencies. If the ACS function


                                   5
                                     Charles O. Rossotti was the IRS Commissioner for a 5-year term that
                                   ended November 2002.
                                   6
                                     The IRS collection process also includes those taxpayers that did not
                                   file their tax returns. However, the scope of this audit was limited to
                                   those taxpayers that filed returns but did not pay all of their taxes.
                                   7
                                     The ACS function is a computerized inventory system that maintains
                                   certain balance due accounts and return delinquency investigations. It is
                                   located at 14 call sites in the SB/SE and Wage and Investment (W&I)
                                   Divisions.
                                                                                                    Page 2
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        was unable to resolve the delinquencies, the cases were
                        moved to the Collection Field function (CFf) where, when
                        resources became available, they were assigned to revenue
                        officers for face-to-face contact with the taxpayers.
                        Over the course of nearly the past decade, the IRS has taken
                        a number of actions, and is planning still others, to improve
                        its ability to respond more quickly to an actual or potential
                        tax debt. For two reasons, however, it is difficult, if not
                        impossible, to assess the cumulative effect these actions
                        have had on the effectiveness of the IRS Collection
                        operations.
                        The first reason is the decrease in Collection function
                        staffing. For example, the Full-Time Equivalents (FTE)8
                        allocated to the Collection function declined from 12,950 in
                        FY 1997 to 11,349 in FY 2002. Second, collection
                        enforcement activities were significantly affected by the
                        enactment of the IRS Restructuring and Reform Act of 1998
                        (RRA 98).9 Between FYs 1997 and 1999, for example, the
                        number of liens filed declined from about 544,000 to about
                        168,000; the number of levies declined from almost
                        3.7 million to about 500,000; and the number of seizures
                        declined from about 10,000 to only 161. Although
                        enforcement activity was increasing by FY 2002, only the
                        number of liens filed was approaching the pre-RRA 98
                        levels.
                        A formal Early Intervention Program was implemented
                        In January 1995, the IRS implemented in the ACS function
                        a formal Early Intervention Program that used both a
                        shortened notice process and earlier taxpayer contact. In the
                        Early Intervention Program, the collection process was
                        shortened by eliminating two notices for taxpayers filing
                        individual income tax returns and by eliminating one notice


                        8
                          A measure of labor hours in which 1 FTE is equal to 8 hours
                        multiplied by the number of compensable days in a particular fiscal
                        year. For FY 2002, 1 FTE was equal to 2,088 staff hours.
                        9
                          Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                        sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                        23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                        Page 3
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        for taxpayers filing business returns. At each ACS call site,
                        special teams of CSRs were designated to work the Early
                        Intervention Program inventory. For cases with telephone
                        numbers, the procedures for the Early Intervention Program
                        required that up to four outbound calls be made by the
                        second week.
                        Later in Calendar Year (CY) 1995, the ACS function
                        resources were reduced and applied to other priority work
                        and, as a result, a formal Early Intervention Program no
                        longer exists. However, the IRS has maintained the same
                        shorter notice process that the Early Intervention Program
                        used, and outbound call attempts are still being made on
                        most new cases that have an available telephone number.
                        Predictive dialing technology was deployed for making
                        outbound telephone calls
                        The IRS began testing a predictive dialer10 at its ACS call
                        site in Buffalo, New York, in CY 1996. The IRS’
                        evaluation showed the predictive dialer increased outgoing
                        call productivity and decreased the inventory in the ACS
                        Contact function.11 In June 1999, the Buffalo site began
                        supporting the outbound call “campaigns”12 from other ACS
                        call sites. This consolidation was completed in
                        January 2000, and in February 2002, a weekly rotational
                        schedule was implemented that provided for outbound calls
                        to be made for each of the ACS call sites.


                        10
                           A predictive dialer automatically makes outbound calls on a
                        predetermined inventory of accounts without an attending CSR on the
                        originating telephone line. The system retrieves the taxpayer’s
                        telephone number from the ACS function database, dials the number,
                        and, when a “live” contact is detected, automatically transfers the call to
                        an available CSR. If there is no answer or if a busy signal is reached,
                        the dialer records that information and reschedules the call. The
                        predictive dialer increases ACS function productivity by more
                        efficiently using the CSRs’ time (e.g., removing the need to dial
                        telephone numbers and eliminating the time spent waiting for taxpayers
                        to answer), thereby allowing for more contacts during a work shift.
                        11
                           The ACS Contact function handles taxpayer telephone calls.
                        12
                           A “campaign” is a small, manageable workload group (generally
                        500 to 1,000 taxpayer accounts) used to prioritize the work (e.g., by
                        dollar value, age of case, type of tax).
                                                                                           Page 4
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        The IRS still uses its original predictive dialer system for
                        making outbound calls on new cases coming into the ACS
                        function and for making outbound calls as a last attempt to
                        contact taxpayers prior to issuing a Notice of Levy. A
                        vendor provides telephone number research for cases
                        coming into the ACS function. A recent analysis showed
                        approximately 57 percent of these incoming cases have a
                        telephone number. During FY 2002, the ACS function used
                        the predictive dialer to make 1.3 million outbound call
                        attempts on 1.2 million taxpayer accounts.
                        The current IRS predictive dialer system is outdated, is no
                        longer supported by the vendor, and is beginning to
                        experience frequent downtime. In a separate audit report,13
                        we recommended the IRS (1) pursue additional human
                        capital or reallocate Compliance resources to enable the
                        operation of present and future predictive dialer systems at
                        full capacity, and (2) pursue a budget solution that would
                        allow the IRS to replace the current predictive dialer system
                        with a state-of-the-art system with sufficient capacity.
                        The IRS completed a major reorganization based on
                        customer segments
                        The RRA 98 mandated that the IRS do a better job of
                        meeting the needs of its customers. To comply with this
                        Congressional mandate, the IRS revised its mission
                        statement to refocus its emphasis on helping taxpayers
                        understand and meet their tax responsibilities. On
                        October 2, 2000, the IRS also modernized its organizational
                        structure from one that was based on function and
                        geography to one that is aligned with its major customer
                        segments. Four new customer-focused business operating
                        divisions14 were created with full end-to-end responsibility
                        for serving distinct groups of taxpayers with similar needs.



                        13
                           Budget Issues Are Delaying the Expanded Use of Predictive Dialer
                        Systems for Contacting Delinquent Taxpayers (Reference
                        Number 2003-30-132, dated June 2003).
                        14
                           The IRS’ four new operating divisions are the Large and Mid-Size
                        Business Division, the SB/SE Division, the Tax Exempt and
                        Government Entities Division, and the W&I Division.
                                                                                      Page 5
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        The new organizational structure is designed to provide
                        more-focused customer service and enhance accessibility to
                        IRS information and personnel that can resolve issues more
                        quickly and consistently within that operating division. The
                        new structure was built around specific taxpayer needs that
                        will enable the IRS to tailor its products, services, and
                        compliance approaches to business practices and strategies.
                        In this way, the IRS can develop a comprehensive and
                        focused approach to tax administration, allocate the
                        necessary resources, and shift to problem prevention and
                        early intervention initiatives.
                        In October 2001, the SB/SE Division implemented changes
                        to the inventory delivery system to alter the mix of cases
                        assigned to revenue officers. The changes delivered
                        younger, predominately in-business trust fund15 cases to
                        revenue officers to be worked as the highest priority. The
                        expected benefits of this plan were:
                             •   Higher collectibility than other cases.
                             •   High compliance impact with opportunities to stop
                                 the noncompliance since the taxpayers are still in
                                 business.
                             •   Significant potential for revenue protection by
                                 preventing pyramiding16 through early intervention.
                        Through the reorganization, the IRS expects to achieve,
                        over time, improved compliance through faster intervention
                        in collection and through a more effective risk-based
                        approach in all Compliance activities. This approach will
                        allow the IRS to more clearly differentiate between those


                        15
                           A trust fund tax liability includes income tax withheld from wages,
                        including tips, supplemental unemployment compensation benefits, and
                        third-party payments of sick pay, Social Security, and Medicare taxes.
                        Businesses use the Employer’s Quarterly Federal Tax Return
                        (Form 941) to report these trust fund taxes. Employees that have taxes
                        withheld from their wages expect the withheld funds to be properly
                        deposited and credited to their accounts, and employers expect their
                        competitors to pay their trust fund taxes.
                        16
                           Pyramiding is the accumulation of delinquent employment tax
                        liabilities.
                                                                                       Page 6
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        taxpayers that are attempting to comply but need assistance
                        and those that potentially require enforcement action (a
                        smaller segment).
                        The IRS is migrating toward a risk-based approach to
                        collecting delinquent taxes and contracting out the
                        collection of some delinquent taxes
                        Under this approach, taxpayer characteristics are analyzed
                        to determine the most appropriate treatment rather than
                        having all delinquent accounts follow the same treatment
                        path. While some cases may follow the normal treatment
                        path, others may be accelerated to the ACS function or the
                        CFf.
                        For example, a Filing and Payment Compliance (F&PC)
                        Model in the Business Systems Modernization effort has a
                        goal to shorten the payment compliance life cycle to
                        6 months.17 All balance due cases will receive the statutory
                        first notice. However, cases will not receive a “one size fits
                        all” compliance approach but rather a tailored treatment, as
                        the taxpayer may receive one notice or a series of notices.
                        Outbound calls will also be emphasized.
                        Although a pilot was planned for April 2004, the Office of
                        Management and Budget has not approved further funding
                        due to budgetary constraints. At the time we completed our
                        review, the project remained on hold.
                        Another initiative is a legislative proposal to contract with
                        private agencies to assist in the IRS’ collection of delinquent
                        taxes. This proposal, which requires the approval of the
                        Congress, would expand the IRS’ capacity to collect
                        delinquent taxes by authorizing private tax collection
                        agencies to pursue lower-priority, less-complex, unresolved
                        tax delinquency cases that accumulate in inventory and
                        might not otherwise be addressed because of limited
                        resources. At the time we completed our review, the
                        Congress had not acted on this proposal.



                        17
                          The F&PC Model is part of the IRS’ effort to modernize its
                        technology and processes in the filing and payment compliance area.
                                                                                       Page 7
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        The FTD Alert criteria are being modified
                        The Federal Tax Deposit18 (FTD) Alert Program is an
                        existing early intervention process which identifies
                        taxpayers that appear to be behind in their deposits of trust
                        fund taxes before their quarterly employment tax returns are
                        due to be filed. The FTD Alerts are computer generated on
                        a quarterly basis for those businesses that appear to be
                        making insufficient FTD payments when compared to those
                        made in prior quarters. The FTD Alerts are assigned to
                        revenue officers in the CFf for contact with the business
                        taxpayers.
                        FTD Alerts can protect the Federal Government’s interest
                        by the early identification of potential delinquent
                        employment tax accounts. They also serve the taxpayers’
                        interests by allowing IRS involvement before enforced
                        collection action or bankruptcy become the two remaining
                        alternatives.
                        During CY 2002, 135,187 FTD Alerts were created. Of
                        these, 45,675 were mandatory alerts and 89,512 were
                        optional alerts.19 Due to resource limitations and workload
                        priorities, the CFf did not work all of the mandatory alerts
                        and did not work any of the optional alerts.
                        At the time we performed this review, the IRS was in the
                        process of significantly changing the FTD Alert Program to
                        address recommendations from internal research studies and
                        audit reports issued by the former IRS Inspection function20



                        18
                           Employers are required to regularly deposit the income taxes withheld
                        from their employees’ earnings, as well as the employer and employee
                        share of Social Security and Medicare taxes, with a financial institution
                        that is an authorized depositary for Federal taxes. A business’ deposit
                        schedule for a calendar year is determined annually from the total taxes
                        reported on Forms 941 in a 4-quarter lookback period beginning on
                        July 1 from 2 years earlier and ending on June 30 of the prior year.
                        19
                           Taxpayers that appear to be making tax deposits in an amount lower
                        than expected are computer selected and scored against a set of criteria
                        to determine which cases will receive field contact.
                        20
                           Service Procedures for Monitoring Federal Tax Deposits (Reference
                        Number 085105, dated August 14, 1998).
                                                                                         Page 8
           While Progress Toward Earlier Intervention With Delinquent Taxpayers
            Has Been Made, Action Is Needed to Prevent Noncompliance With
                          Estimated Tax Payment Requirements

                                   and the TIGTA.21 The IRS expected to complete the testing
                                   of the new FTD Alert criteria by January 2004.
                                   The IRS has delayed taking action on one previous audit
                                   recommendation to look at alternate functions, such as the
                                   ACS function, for working FTD Alerts. The IRS was
                                   evaluating the feasibility of issuing a “soft letter”22 to
                                   taxpayers on some FTD Alert cases and expected a decision
                                   by August 2003.
                                   Approximately 12 million taxpayers made estimated tax23
Actions Are Needed to Prevent
                                   payments totaling $183 billion for Tax Year (TY) 2001.
Noncompliance With Estimated
                                   The tax law generally requires taxpayers to make estimated
Tax Payment Requirements
                                   tax payments if (1) they expect to owe at least $1,000 in tax,
                                   after subtracting their withholding and credits, and (2) they
                                   expect their withholding and credits to be less than the
                                   smaller of 90 percent of the current year tax liability or
                                   100 percent of the prior year tax liability.24 The estimated
                                   tax system supports the “pay as you go” concept of paying
                                   taxes on nonwage sources of income. For estimated tax
                                   purposes, the year is divided into four payment periods with
                                   specific payment due dates.25
                                   The IRS may assess an estimated tax penalty if a taxpayer
                                   did not pay enough taxes through withholding or estimated
                                   tax payments. An estimated penalty may also be assessed if
                                   a taxpayer does not pay enough tax by the due date of each
                                   of the four quarterly payment periods.

                                   21
                                      Consolidated Report on Opportunities for the Internal Revenue
                                   Service to Improve Service to Business Taxpayers (Reference
                                   Number 2000-30-015, dated December 1999).
                                   22
                                      A “soft letter” could advise taxpayers the IRS has identified a
                                   decrease in their FTD payments and ask for an explanation, such as if
                                   they no longer have employees. The letter could advise taxpayers to call
                                   the IRS for help in meeting their business tax deposit requirements.
                                   23
                                      Estimated tax is the method used to pay taxes on income not subject
                                   to withholding. The payments are generally required on a quarterly
                                   basis.
                                   24
                                      There are exceptions to the general rule for farmers, fishermen, and
                                   certain higher-income taxpayers.
                                   25
                                      Estimated tax payments are due on April 15, June 15, and
                                   September 15 of the current year and January 15 of the following year.
                                   The payment due dates would be different for taxpayers that file on a
                                   fiscal, rather than calendar, year basis.
                                                                                                   Page 9
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        There is significant noncompliance with estimated tax
                        payment requirements
                        Understanding estimated tax payments is one of the most
                        serious problems encountered by taxpayers, according to the
                        National Taxpayer Advocate FY 2001 Annual Report to
                        Congress. The estimated tax penalty is the second most
                        frequently assessed penalty against individual taxpayers.
                        An IRS study26 showed 31 percent of the taxpayers that
                        either made, or were required to make, estimated tax
                        payments for TY 1999 were assessed the estimated tax
                        penalty. In contrast, only about 3.2 percent of individual
                        taxpayers that had not made estimated tax payments were
                        penalized for the late filing of returns or the late payment of
                        taxes in TY 1998.27
                        Figure 1 shows that, for each tax year from 1995 through
                        2000, the IRS penalized between 5.7 million and
                        6.8 million taxpayers for making late or insufficient
                        estimated tax payments. For these 6 years, the net28
                        estimated tax penalties totaled almost $7.5 billion and
                        averaged more than $1.2 billion per year.




                        26
                           Project Report: Profile of 1040-ES Filers, Project 1.48A, Wage &
                        Investment Research Group 4, dated November 2001.
                        27
                           The analysis of taxpayers that were penalized for the late filing of
                        returns or the late payment of taxes was available only for TY 1998.
                        28
                           Total estimated tax penalty assessments less abatements.
                                                                                         Page 10
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                             Figure 1: Number of Estimated Tax Penalties: TYs 1995 - 2000
                                                           Millions
                                                       8




                             ESTIMATED TAX PENALTIES
                                                       7                         6.8
                                                                 5.9     6.4                              6.4
                                                                                          5.7     6.0
                                                       6

                                                       5

                                                       4

                                                       3

                                                       2

                                                       1

                                                       0
                                                             1995      1996    1997    1998     1999    2000
                                                                               TAX YEARS

                        Source: IRS Data Books, 1996-2001 (Publication 55B).

                        Noncompliance with estimated taxes is costly for the
                        Federal Government
                        Not only is noncompliance with estimated tax payment
                        requirements costly for those taxpayers assessed penalties, it
                        also delays the flow of tax revenues to the Federal
                        Government and often requires the IRS to take costly
                        collection actions. For example, we analyzed the accounts
                        of more than 2 million of the 5.7 million individual
                        taxpayers that were assessed estimated tax penalties for
                        TY 1998. Approximately 58 percent of these taxpayers had
                        made no estimated tax payments. These 2 million taxpayers
                        had tax liabilities totaling $5.9 billion that were not fully
                        paid when their tax returns were filed, resulting in the
                        issuance of 2.7 million collection notices for more than
                        1.5 million taxpayers. About 331,000 of these accounts
                        ultimately reached Taxpayer Delinquent Account (TDA)29
                        status that often requires the IRS to take stronger, more
                        labor-intensive actions to collect the debts.
                        We estimate the IRS incurred more than $18 million in
                        collection costs for these 1.5 million noncompliant
                        taxpayers. Approximately 1 million of these taxpayers were
                        self-employed.



                        29
                          A TDA involves unpaid taxes, penalties, and/or interest on a tax
                        return that has been filed.
                                                                                                               Page 11
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        Several factors contribute to taxpayer noncompliance in
                        making estimated tax payments
                        Several factors contribute to the significant noncompliance
                        with estimated tax requirements:
                           •   At the root of the issue is that the tax law does not
                               require payers to withhold taxes from nonwage
                               payments. Nonwage sources of income continue to
                               grow as a proportion of total income.
                           •   The potential risk for skipped or late estimated tax
                               payments is also increased because the quarterly due
                               dates prescribed by law for making the payments do
                               not consistently coincide with the calendar quarters.
                           •   The estimated tax penalty is based on the Federal
                               Government short-term interest rate, which is at its
                               lowest level in 45 years, and may not provide a
                               sufficient deterrent to noncompliance with estimated
                               tax payment requirements.
                           •   While the IRS is working on improving its alert
                               system for employment tax deposits, there are no
                               parallel early intervention programs to identify
                               individual taxpayers that stop making quarterly
                               estimated tax payments or that may be making
                               insufficient or untimely payments.
                           •   The IRS has experienced little success in
                               encouraging taxpayers to use electronic payment
                               options for making estimated tax payments.
                        Nonwage income is not subject to mandatory tax
                        withholding
                        The law requires employers to withhold income taxes and
                        Social Security/Medicare contributions from their
                        employees’ wages and send the withheld taxes to the IRS.
                        Withholding is a fundamental premise of the voluntary
                        compliance system for individual taxpayers in that it
                        provides for a gradual and systematic method to pay taxes.




                                                                             Page 12
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        In 1999, the GAO reported30 the tax compliance rate for
                        wage earners was 99 percent. However, the compliance rate
                        is much lower for taxpayers with nonwage sources of
                        income, such as self-employment, capital gains, interest, and
                        dividends, for which taxes are generally not withheld.
                        When there is no withholding, taxpayers are required to
                        make quarterly estimated tax payments. Self-employed
                        taxpayers must make sufficient estimated tax payments to
                        cover both their income taxes and Social Security/Medicare
                        taxes, which since TY 1990 have been 15.3 percent of the
                        net self-employment income.31
                        IRS Statistics of Income (SOI) data for individual income
                        tax returns filed during 1997 showed 2.3 million
                        (26 percent) of the 8.8 million unpaid balance due returns
                        involved taxpayers that had no withholding. An IRS
                        analysis of the 122 million individual income tax returns
                        filed in CY 1998 found that over 30.5 million (25 percent)
                        involved insufficient tax prepayments and reported a
                        balance due with filing. In 1999, the GAO reported32 the
                        compliance rate for self-employed individuals was
                        80 percent. As of December 31, 2000, self-employed
                        taxpayers33 owed the IRS approximately $25 billion in
                        delinquent taxes, interest, and penalties.




                        30
                           Tax Administration: Billions in Self-Employment Taxes Are Owed
                        (GAO/GGD-99-18, dated February 1999).
                        31
                           Taxpayers are not required to pay self-employment taxes if their net
                        income from self-employment is less than $400. For 2002, the
                        maximum amount of self-employment income subject to Social Security
                        taxes was $84,900.
                        32
                           GAO/GGD-99-18, February 1999.
                        33
                           Self-employed taxpayers include sole proprietors and workers that
                        have been classified as independent contractors. The IRS has adopted
                        20 common law rules for classifying workers. The degree of control a
                        business has over a worker largely determines whether a worker should
                        be classified as an employee or independent contractor.
                                                                                      Page 13
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        Nonwage income continues to increase as a percentage of
                        total income
                        In 1996, the GAO reported34 nonwage income had been a
                        growing proportion of individual taxpayers’ total incomes
                        from 1970 through the 1980s, peaking in 1989. As shown
                        in Figure 2, the percentage of nonwage income to total
                        income leveled off between 1990 and 1995 but had
                        significantly increased by 2000, the last year for which
                        information was available.
                                  Figure 2: Growth in Nonwage Income from 1975 to 2000
                                                                   Percent change in nonwage income since 1975
                                                                   Percent of nonwage income to total income in 1975

                                                    35.0%
                                                    30.0%
                             Nonwage Income as a
                              Percentage of Total




                                                    25.0%
                                    Income




                                                    20.0%
                                                    15.0%
                                                    10.0%
                                                    5.0%
                                                    0.0%
                                                            1975        1980       1985       1990       1995          2000
                                                                                      Tax Year


                        Source: SOI Bulletins, Fall 1995 and Summer 2001 (Publication 1136)
                        and SOI, Individual Income Tax Returns, 2000 (Publication 1304).

                        Between 1975 and 2000, nonwage income grew
                        significantly, from 17.4 percent of total income
                        ($167 billion) to 30.6 percent of total income (nearly
                        $2 trillion). This represents a 76 percent increase in the
                        proportion of nonwage income to total income and an
                        approximately 12-fold growth in total nonwage income.
                        As shown in Figure 3, the growth of nonwage income can
                        also be illustrated by the increase in the percentage of
                        individual income tax returns filed that report only nonwage
                        income. Overall, the returns reporting only nonwage
                        income increased from 10.6 percent (8.7 million of
                        82 million income tax returns filed in 1975) to 14.8 percent



                        34
                          Tax Administration: Tax Compliance of Nonwage Earners
                        (GAO/GGD-96-165, dated August 1996).
                                                                                                                         Page 14
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        (19.2 million of 129 million income tax returns filed in
                        2000).
                          Figure 3: Growth of Tax Returns With Only Nonwage Income

                                                     Nonwage Income forms file d (in millions)

                                              25.0


                                              20.0




                            Forms Filed
                                              15.0


                                              10.0


                                               5.0


                                                -
                                                        1975        1980               1985                     1990               1995          2000
                                                                                             Tax Year


                        Source: SOI Bulletins, Fall 1995 and Summer 2001 (Publication 1136)
                        and SOI, Individual Income Tax Returns, 2000 (Publication 1304).

                        Figure 4 compares the growth in the largest nonwage
                        sources of income to the growth in income from wages for
                        the 25-year period from 1975 to 2000. Except for interest,
                        each nonwage source had increased from about three to
                        eight times more than wages.
                                 Figure 4: Growth in Tax Returns With Wages and Nonwage
                                                          Income

                                                    Percent Increase in Income Items 1975-2000

                                                                                             % Increas e

                                              450%

                                              400%

                                              350%

                                              300%
                           Percent Increase




                                              250%

                                              200%

                                              150%

                                              100%

                                              50%

                                               0%
                                                                                                Sch. C Income




                                                                                                                                                   Capital Gains
                                                                 Interest


                                                                            Partnership/S-




                                                                                                                       Dividends



                                                                                                                                      Pensions
                                                         Wages




                                                                                Corp




                                                                                   Sour ce of Incom e



                        Source: SOI Bulletin, Fall 1995 (Publication 1136) and SOI, Individual
                        Income Tax Returns, 2000 (Publication 1304).


                                                                                                                                                 Page 15
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        Past efforts to mandate withholding on nonwage sources
                        of income have failed
                        As early as 1979, the GAO concluded noncompliance
                        among independent contractors was serious enough to
                        warrant some form of tax withholding on the payments
                        made to them.35 During the 1990s, at least two GAO
                        reports36 and Congressional testimonies37 suggested
                        withholding taxes from payments to independent
                        contractors. To support this position, the GAO cited various
                        IRS studies and data that showed a significantly lower level
                        of compliance among independent contractors as compared
                        to employees.
                        A 1992 report38 by the Joint Committee on Taxation also
                        acknowledged the revenue loss associated with the lower
                        compliance rates of independent contractors and made
                        suggestions to improve compliance and enforcement. One
                        suggestion was to require businesses to withhold income
                        and employment taxes from payments to independent
                        contractors.
                        In 2001, we reported39 that, for TYs 1995 through 1998, the
                        IRS had received about 9.6 million Statements for
                        Recipients of Miscellaneous Income (Form 1099-MISC),
                        reporting approximately $204 billion in nonemployee
                        compensation to independent contractors, that either did not

                        35
                           Hearing on Compliance Problems of Independent Contractors Before
                        the Subcommittee on Select Revenue Measures, House Committee on
                        Ways and Means, dated July 17, 1979.
                        36
                           Tax Administration: Approaches for Improving Independent
                        Contractor Compliance (GGD-92-108, dated July 1992); and Tax
                        Administration: Tax Compliance of Nonwage Earners
                        (GAO/GGD-96-165, dated August 1996).
                        37
                           Tax Administration: Issues Involving Worker Classification
                        (GAO/T-GGD-95-224, dated August 2, 1995); and Tax Administration:
                        Issues in Classifying Workers as Employees or Independent Contractors
                        (GAO/T-GGD-96-130, dated June 20, 1996).
                        38
                           Present Law and Issues Relating to Misclassification of Employees
                        and Independent Contractors for Federal Tax Purposes (JCX-27-92,
                        dated July 22, 1992).
                        39
                           Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of
                        Taxpayer Identification Numbers for Independent Contractors
                        (Reference Number 2001-30-132, dated August 2001).
                                                                                    Page 16
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        contain a Taxpayer Identification Number (TIN) for the
                        payee or match the IRS records of assigned TINs.
                        Consequently, the IRS could not use these information
                        documents in its computer-matching programs to determine
                        whether the recipients of this compensation filed tax returns
                        and/or reported all of the income.
                        Our report recommended the IRS propose changes to the tax
                        law to require the mandatory withholding of income taxes
                        on nonemployee compensation payments. However, the
                        IRS took no action on this recommendation. The IRS
                        responded it had previously submitted proposals for
                        legislative changes to the Department of the Treasury that
                        would require mandatory withholding of income taxes on
                        nonemployee compensation payments and, in the past, the
                        Department of the Treasury had chosen not to forward these
                        proposals to the Congress.
                        The due dates for making estimated tax payments do not
                        consistently coincide with the calendar quarters
                        The Current Tax Payment Act of 194340 established the
                        statutory requirements for making estimated tax payments.
                        At the time this law was enacted, the due date for filing
                        individual income tax returns was March 15. The Congress
                        originally established the estimated tax payment due dates
                        as the 15th day of the third month of each quarter
                        (i.e., March 15, June 15, September 15, and December 15).
                        The Congress amended the law the following year to change
                        the due date for the fourth estimated tax payment to
                        January 15, to provide taxpayers the opportunity to file their
                        returns with payment in lieu of making a fourth quarterly
                        estimated tax payment.41 In 1954, the Congress amended
                        the tax code to change the due date for filing an individual
                        income tax return and for making the first estimated tax
                        payment from March 15 to April 15.42 However, the


                        40
                           Pub. L. No. 78-68, 57 Stat. 143 (1943).
                        41
                           Pub. L. No. 78-315, 58 Stat. 243 (1944) and H.R. Rep. No. 78-655,
                        78th Cong., 2nd Session, 11 (1944).
                        42
                           Pub. L. No. 83-591, 68A Stat. 749 and 758 (1954) and H.R. Rep.
                        No. 83-1337, 83rd Cong., 2nd Session, A401 (1954).
                                                                                      Page 17
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        Congress did not revise the due dates for the other quarterly
                        estimated tax payments to coincide with this change.
                        Thus, for nearly 50 years, taxpayers have been required to
                        comply with the confusing estimated tax payment schedule
                        shown in Table 1.
                                      Table 1: Estimated Tax Payment Schedule
                               Payment          For Income          Calendar Days Since
                               Due Date          Received          Last Payment Due Date
                               April 15      January 1 through                90
                                                 March 31
                               June 15        April 1 through                 61
                                                 May 31
                             September 15     June 1 through                  92
                                                August 31
                              January 15    September 1 through              122
                                               December 31
                        Source: Tax Withholding and Estimated Tax (Publication 505).

                        The risk for skipped or late estimated tax payments is
                        increased because the quarterly due dates prescribed by law
                        for making the payments do not consistently coincide with
                        the calendar quarters. As a result, two estimated payments
                        are required to be made during the second quarter
                        (i.e., April - June) of each year while none are required to be
                        made during the fourth quarter (i.e., October - December).
                        In addition, the number of calendar days between the
                        estimated tax payment due dates ranges from 61 to 122.
                        In 2002, the IRS conducted a series of focus groups43 with
                        practitioners to gather suggestions for improving
                        communication with taxpayers and practitioners and for
                        reducing the burden on small business taxpayers. When
                        asked about the most burdensome tax issues facing the
                        small business taxpayer, several participants stated:



                        43
                          2002 Tax Forum Focus Groups – Reducing Taxpayer Burden for
                        Small Businesses, SB/SE Research, Brooklyn/Hartford & Seattle/
                        San Jose, dated October 2002.
                                                                                   Page 18
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                                   The timing of the estimated payments does not make
                                   sense. The due dates create problems for a business
                                   working on a quarterly basis. It is difficult to
                                   estimate taxes before a quarter has ended. For
                                   example, estimating the appropriate payment on
                                   June 15, when earnings will continue until June 30,
                                   presents a dilemma for the taxpayer.
                        The estimated tax penalty is not providing a sufficient
                        deterrent to payment noncompliance
                        The estimated tax penalty is computed by applying an
                        underpayment rate to the amount of the underpayment for
                        the period of the underpayment. The estimated tax penalty
                        amount is equivalent to the dollar amount of interest on the
                        unpaid amount for the period of the underpayment. The
                        Internal Revenue Code (I.R.C.) specifies that the
                        underpayment rate is the sum of the Federal Government
                        short-term interest rate plus three percentage points.44 The
                        rate of interest is determined on a quarterly basis.
                        For TY 1999, when an IRS study45 showed 31 percent of the
                        taxpayers that either made, or were required to make,
                        estimated tax payments were assessed estimated tax
                        penalties, the penalty rate was 8 percent. The study also
                        showed 60 percent of the taxpayers that were assessed
                        estimated tax penalties for TY 1999 were charged less than
                        $100.
                        The estimated tax penalty rate, which has subsequently
                        dropped to very low levels, may not provide a sufficient
                        deterrent for not making timely, appropriate estimated tax
                        payments. As of October 1, 2003, the Federal Government
                        short-term interest rate was only 1 percent, its lowest level
                        in 45 years. Therefore, the penalty for missing an estimated
                        tax payment for the October 1 through December 31, 2003,
                        quarter would have been 4 percent of the underpaid amount
                        for the 3-month period.



                        44
                             I.R.C. § 6621 (2002).
                        45
                             Profile of 1040-ES Filers, November 2001.
                                                                               Page 19
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        There are no early intervention programs to identify
                        taxpayers that are not making estimated tax payments
                        The significant noncompliance in making quarterly
                        estimated tax payments on nonwage income, evidenced by
                        the millions of estimated tax penalties assessed by the IRS
                        each year and the amount of unpaid taxes that requires
                        costly collection action by the IRS, demonstrates that the
                        current system is not adequately serving taxpayers or the
                        IRS. We believe these taxpayer and Federal Government
                        costs could be significantly reduced if the IRS used its
                        available taxpayer account information to more timely assist
                        taxpayers in properly making their estimated tax payments.
                        The IRS runs computer programs at different times of the
                        year to identify the approximately 20.8 million46 taxpayers
                        that are sent estimated tax payment vouchers by mail.
                             •   In January of each year, the IRS conducts an annual
                                 mail-out of estimated tax packages to about
                                 16 million taxpayers that, for the previous tax year,
                                 made estimated tax payments and/or were assessed
                                 estimated tax penalties. The packages include
                                 4 payment vouchers the taxpayers should use for the
                                 4 payment periods during the next 12 months.
                             •   In March, the IRS performs a similar mail-out of
                                 estimated tax packages to about 300,000 taxpayers
                                 that may have filed their tax returns late and, thus,
                                 were not identified for the earlier annual mail-out.
                             •   In June, the IRS mails estimated tax packages to
                                 about 1.5 million taxpayers that did not make
                                 estimated tax payments for the last tax year but
                                 submitted a generic, over-the-counter, estimated tax
                                 payment voucher during the first payment period for
                                 the current tax year. This mail-out includes the
                                 payment vouchers the taxpayers should use for the
                                 following three payment periods.



                        46
                          The number of taxpayers is based on the IRS’ most recent mail-outs
                        and would vary from year to year.
                                                                                     Page 20
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                             •   In September, the IRS mails estimated tax packages
                                 to about 3 million taxpayers that did not make
                                 estimated tax payments for the last tax year but
                                 submitted a generic, over-the-counter, estimated tax
                                 payment voucher during the second payment period
                                 for the current tax year. This mail-out includes
                                 payment vouchers the taxpayers should use for the
                                 following two payment periods.
                        While the IRS makes significant efforts to ensure estimated
                        tax payment vouchers are provided to those taxpayers that
                        need them, it takes no action to monitor payment
                        compliance until the taxpayers file their returns 12 to
                        15 months later. If the taxpayers misplace the annual
                        estimated tax package with the four payment vouchers,
                        forget to make the estimated tax payments throughout the
                        year, do not know in advance the amount of their final tax
                        liability, or do not know how much they paid in estimated
                        taxes the previous year, they will likely be penalized for
                        skipped, late, or insufficient estimated tax payments.
                        In 1999, the GAO recommended the IRS test the feasibility
                        of sending reminder notices to self-employed taxpayers that
                        were assessed an estimated tax penalty in the prior year and
                        had made no estimated tax payments in the current year.
                        The IRS initially requested computer programming to
                        develop the reminder notices for 2000, but, due to limited
                        resources, management decided to delay implementation
                        until 2001. The IRS subsequently closed this
                        recommendation without any action based on information
                        from a June 2000 initiative that tested the effect of a
                        prefiling notice on repeat high-income nonfilers. Currently,
                        there are no reminder notices sent for estimated taxes.
                        Sending reminder notices shortly before the estimated tax
                        payments are due was also suggested to the IRS during a
                        July 2001 study47 to determine taxpayer attitudes toward
                        paying estimated tax payments through electronic methods.
                        Focus group participants were asked about anything


                        47
                          Project Report: Focus Group Study of Form 1040-ES Customers,
                        Project 1.32, Wage & Investment Research Group 4, dated July 2001.
                                                                                    Page 21
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        additional the IRS could do to encourage use of automatic
                        funds withdrawal or credit cards to pay estimated taxes.
                        One of their suggestions stated:
                                 The participants in our focus groups like to be
                                 notified of upcoming liability payments of any kind.
                                 Therefore, complete a cost benefit analysis to
                                 determine the most effective way to send taxpayers a
                                 reminder notice about their upcoming quarterly
                                 estimated tax payments. Reminder notices could be
                                 accomplished through direct mailings, newspapers,
                                 public service announcements, advertisements in
                                 retirement magazines and reminders in bank or
                                 stockbroker statements to name a few.
                        At the time we completed our review, the IRS had taken no
                        action toward adopting this suggestion.
                        We believe the IRS should reconsider the reminder notice
                        concept as a strategy for improving estimated tax payment
                        compliance and reducing its collection costs. Based on our
                        computer analysis of the TY 1998 accounts of
                        2,025,189 taxpayers that had been assessed estimated tax
                        penalties, we believe 1,141,59948 (56 percent) of these
                        taxpayers could have benefited from midyear reminder
                        notices from the IRS as a potential means to prevent or
                        minimize future estimated tax penalties, future balance due
                        returns, and future accounts receivables. These
                        1,141,599 taxpayers owed $3.8 billion in taxes after filing
                        their TY 1998 returns and had been assessed estimated tax
                        penalties totaling $412 million, other penalties totaling
                        $756 million,49 and interest totaling $732 million.50 These
                        1,141,599 taxpayers included:
                             •   603,533 taxpayers that were assessed estimated tax
                                 penalties for TY 1997 but made no estimated tax
                                 payments for TY 1998.


                        48
                           The remaining 883,590 taxpayers generally did not meet the criteria
                        for receiving the annual mail-out of estimated tax packages.
                        49
                           Total includes assessed Delinquency Penalties and Failure to Pay
                        (FTP) Penalties as well as accrued FTP Penalties.
                        50
                           Total includes both assessed and accrued interest.
                                                                                       Page 22
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                             •   111,913 taxpayers that made estimated tax payments
                                 for TY 1997 but made none for TY 1998.
                             •   154,731 taxpayers that made substantially smaller
                                 estimated tax payments for TY 1998 than for
                                 TY 1997.
                             •   271,422 taxpayers that made untimely estimated tax
                                 payments for TY 1998.
                        The IRS’ cost for the current annual mail-out of estimated
                        tax packages each January is approximately $5 million. We
                        estimate the additional IRS costs to mail estimated tax
                        payment reminder notices to the 1,141,599 taxpayers in our
                        sample that could have benefited from a reminder notice
                        would have been $194,000. Assuming that 25 percent of
                        these taxpayers became payment compliant as a result of the
                        reminder notice, these taxpayers could avoid approximately
                        $413 million in penalties and interest and the IRS could
                        reduce its collection costs by $2.6 million. See
                        Appendix IV for details.
                        Compliance could be improved by encouraging more
                        taxpayers to make estimated tax payments electronically
                        The IRS encourages taxpayers to pay their taxes through
                        electronic funds withdrawals and credit cards as alternatives
                        to writing checks and mailing payment vouchers. However,
                        IRS data show the overwhelming majority of the estimated
                        tax payments the IRS receives are in the form of traditional
                        paper payment vouchers and taxpayer checks. For example,
                        a profile51 of taxpayers that made estimated tax payments for
                        TY 1999 showed less than one-half of 1 percent (i.e., 1 in
                        200) of the 13 million taxpayers had used electronic
                        methods for making their payments. A second profile52 for
                        TY 2001 showed 38,766,000 (99.9 percent) of the
                        38,819,000 estimated tax payments received were made via
                        paper.


                        51
                          Profile of 1040-ES Filers, November 2001.
                        52
                          Profile of Taxpayers Who Made Estimated Payments for Form 1040
                        in TY 2001, Project 01.02.002.03, located on the IRS Intranet (file last
                        modified on May 5, 2003).
                                                                                        Page 23
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        The IRS has studied how to increase taxpayer usage of
                        electronic estimated tax payments. For example, a focus
                        group study53 was performed in July 2001 to determine
                        taxpayer attitudes toward paying estimated taxes through
                        electronic methods. The general consensus across the group
                        of participants was that they would not use credit cards to
                        make their estimated tax payments as long as the credit card
                        companies continued to charge a convenience fee.
                        For the past several years, the IRS has also provided
                        taxpayers with an Electronic Federal Tax Payment System
                        (EFTPS) for making tax payments electronically using the
                        Internet, computer software, or telephone. The EFTPS is
                        offered free by the Department of the Treasury to both
                        business and individual taxpayers.
                        Taxpayers must enroll in the EFTPS. Estimated tax filers
                        may call a toll-free number to request an Individual
                        Enrollment Form for EFTPS (Tax Form 9783) or enroll
                        through the Internet. Within 15 business days, the taxpayer
                        is mailed a Personal Identification Number and confirmation
                        materials that include instructions on obtaining a password
                        for secure use of the EFTPS Internet site. At least
                        1 calendar day prior to the estimated tax payment due date,
                        the taxpayer can access the EFTPS by telephone or on-line.
                        The system will prompt the taxpayer for the necessary
                        information to complete the payment. The system processes
                        the information and, once the tax payment is accepted, a
                        withdrawal is initiated from the taxpayer’s bank account, the
                        funds are transferred to the Treasury account, and the
                        payment information is reported to the IRS to update the
                        taxpayer’s account.
                        Until recently, however, taxpayers could use the EFTPS to
                        schedule only one estimated tax payment at a time. In
                        July 2003, the IRS enhanced the EFTPS so taxpayers can
                        schedule all four quarterly estimated tax payments at the
                        same time.
                        Information about the EFTPS is contained in the general tax
                        package instructions and several other IRS publications.

                        53
                             Focus Group Study of Form 1040-ES Customers, July 2001.
                                                                                       Page 24
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        However, the fact that the EFTPS is offered as a “free”
                        service by the Department of the Treasury is not covered in
                        several key IRS publications such as the Estimated Tax for
                        Individuals (Form 1040-ES and Form 1040-ES/V (OCR))
                        instructions and Tax Withholding and Estimated Tax
                        (Publication 505). The EFTPS is only briefly described in
                        these documents. For example, in Publication 505
                        (Rev. December 2002), the reference to the EFTPS is
                        limited to two sentences on page 24.
                        Recommendations
                        To address the significant noncompliance in paying
                        estimated taxes, the Commissioners, Large and Mid-Size
                        Business (LMSB), SB/SE, and W&I Divisions, should work
                        with the IRS Office of Legislative Affairs to:
                        1. Explore the development of a system of mandatory
                           withholding of income taxes from nonemployee
                           compensation paid to independent contractors for
                           possible inclusion in a legislative proposal, similar to the
                           one we previously recommended54 in 2001, for
                           submission to the Department of the Treasury. To avoid
                           placing undue burden on small businesses, the IRS
                           should limit the requirement to withhold taxes on
                           nonemployee compensation to large and mid-size
                           businesses.55
                        Management’s Response: The Director, Field Specialists,
                        LMSB Division, agreed to explore the feasibility of
                        developing a system of mandatory withholding of income
                        taxes from nonemployee compensation paid to independent
                        contractors in large and mid-size businesses. The Director,
                        Field Specialists, will explore this action in coordination
                        with program managers in the SB/SE and W&I Divisions
                        and the LMSB Division Counsel. If developing and
                        implementing a system of mandatory withholding for these


                        54
                           Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of
                        Taxpayer Identification Numbers for Independent Contractors
                        (Reference Number 2001-30-132, dated August 2001).
                        55
                           The IRS defines large and mid-size businesses as those with
                        $10 million or more in assets.
                                                                                     Page 25
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        taxpayers is feasible, the Director, Field Specialists, will
                        draft and coordinate a legislative proposal with the Office of
                        Legislative Affairs for consideration by the Department of
                        the Treasury.
                        To minimize taxpayer confusion with the estimated tax
                        payment due dates and increase the effectiveness of the
                        estimated tax penalty as a deterrent to payment
                        noncompliance, the Commissioners, SB/SE and W&I
                        Divisions, should work with the IRS Office of Legislative
                        Affairs to:
                        2. Develop a legislative proposal, for submission to the
                           Department of the Treasury, to change the estimated tax
                           payment due dates from the current irregular schedule,
                           which requires 4 payments that are spaced from 61 to
                           122 days apart, to a regular monthly schedule with
                           payments due on the 15th day of each month and with
                           the last payment due January 15. We believe this
                           change would promote payment compliance by evenly
                           spacing the due dates approximately 90 days apart,
                           requiring smaller individual payments by the taxpayer,
                           and encourage use of the EFTPS for making electronic
                           payments. The increased frequency of estimated
                           payments would also expedite the flow of revenue into
                           the Treasury in comparison to the existing system.
                           Taxpayers would also benefit because the estimated tax
                           penalty for a skipped or late monthly payment would be
                           less than that for a skipped or late payment under the
                           existing system.
                        Management’s Response: The Commissioner, SB/SE
                        Division, disagreed with this recommendation, stating that,
                        although there may be some benefit to establishing regular
                        quarterly time periods for individual estimated tax
                        payments, monthly estimated tax payments would increase
                        burden and complexity for both compliant and
                        noncompliant taxpayers. The Commissioner added that
                        increasing the number of payments would increase both the
                        complexity of Underpayment of Estimated Tax by
                        Individuals, Estates, and Trusts (Form 2210) and the


                                                                              Page 26
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        difficulty of computing estimated tax penalties for
                        noncompliant taxpayers.
                        Office of Audit Comment: Given the significant increase in
                        nonwage income and the extensive noncompliance with
                        making estimated tax payments, we continue to believe
                        taxpayers could benefit from a system of regularly
                        scheduled monthly payment dates. The fact that nearly
                        one-third of the taxpayers that make estimated tax payments
                        incur penalties strongly suggests the current quarterly
                        payment system, in place since 1943, is not working
                        effectively. Monthly payment intervals are an established
                        and common business practice in the private sector. Most
                        Americans are already used to making monthly payments on
                        their home mortgages, rent, car loans, credit cards, and
                        utilities. Many utility companies establish fixed monthly
                        billing dates whereby their customers pay the same amount
                        on the same date of each month through an even billing
                        process. In addition, many homeowners have mortgage
                        escrow accounts set up to have money held to pay property
                        taxes and insurance premiums so they do not have to worry
                        about coming up with several large lump sum payments,
                        each with different due dates, throughout the year. Also,
                        taxpayers that cannot pay the full amount with their
                        individual income tax returns can make arrangements with
                        the IRS to make monthly installment payments.
                        We believe the Commissioner’s concern with the taxpayer
                        burden associated with a monthly payment system would be
                        alleviated with the successful promotion of electronic
                        payments. In addition, the IRS instructions for Form 2210
                        state that taxpayers do not need to file the Form in most
                        cases if an estimated tax penalty is due and that, because the
                        Form is complicated, the IRS strongly encourages the
                        taxpayer to let the IRS figure the penalty. Finally,
                        substantial taxpayer burden would be reduced if the monthly
                        payment system helped taxpayers avoid estimated tax
                        penalties. Under a monthly system, 12 smaller payments
                        would be spread out over a year. Therefore, the estimated
                        tax penalty for one skipped or late monthly payment would
                        be less than that for a skipped or late quarterly payment


                                                                              Page 27
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        under the existing system, which requires larger payment
                        amounts and longer intervals between payments.
                        3. Develop a legislative proposal, for submission to the
                           Department of the Treasury, to change the manner in
                           which the estimated tax penalty rate is determined to
                           ensure it serves as a more effective deterrent to
                           noncompliance with estimated tax payment
                           requirements.
                        Management’s Response: The Commissioner, SB/SE
                        Division, disagreed with this recommendation, stating that,
                        in July 2001, the IRS had developed a legislative proposal
                        recommending the Congress raise the minimum
                        underpayment amount on which penalties are assessed for
                        failure to make estimated tax payments and change the rate
                        at which the estimated penalty is determined. The proposed
                        changes would apply to tax years beginning after
                        December 31, 2003. The Commissioner stated the proposal
                        has been incorporated into Section 201 of Senate Bill
                        (S.) 882, Tax Administration Good Government Act, and,
                        therefore, the IRS does not believe developing an additional
                        legislative proposal is required.
                        Office of Audit Comment: We continue to believe our
                        recommendation has merit. The legislative proposal cited
                        by the Commissioner, SB/SE Division, was referred to the
                        Senate Committee on Finance on April 10, 2003, and had
                        not been acted on as of January 15, 2004. While applying
                        the underpayment rate on a daily basis would increase the
                        amount of the estimated tax penalty, the increase would not,
                        in our opinion, be sufficient to effectively deter taxpayers
                        from avoiding estimated tax payments. By our calculations,
                        for example, a taxpayer who missed making a $5,000
                        estimated tax payment for the October - December 2003
                        quarter would face an increased penalty of only 66 cents
                        under the proposed tax law change.
                        To assist in promoting the IRS’ goals to provide prefiling
                        taxpayer assistance, potentially reduce the significant
                        number of taxpayers that are incurring estimated tax
                        penalties and/or filing balance due returns, and potentially
                        reduce the IRS’ eventual collection costs, the Directors,

                                                                              Page 28
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        Compliance, SB/SE and W&I Divisions, and the Director,
                        Customer Assistance, Relationships, and Education, W&I
                        Division, should coordinate to:
                        4. Develop and send educational midyear reminder notices
                           to those taxpayers that were assessed estimated tax
                           penalties in the prior tax year and had made no
                           estimated tax payments during the first 6 months of the
                           current tax year or had made substantially smaller
                           payments or untimely payments during the first
                           6 months. This notice would remind taxpayers of the
                           estimated tax requirements and potentially help them
                           avoid significant penalties before they fall too far behind
                           in their estimated tax payment obligations.
                        Management’s Response: The Commissioner, SB/SE
                        Division, disagreed with this recommendation, stating that,
                        in early 2000, the IRS had initiated a “soft letter” project to
                        determine whether a “soft letter” would significantly
                        increase FTD payment compliance. The Commissioner
                        advised that, based on the results of that study, a reminder
                        notice would have little or no impact on payment
                        compliance.
                        The Commissioner also disagreed with our estimate that
                        penalty and interest could be reduced by $2.1 billion over
                        5 years by assuming the midyear reminder notice could
                        result in a 25 percent increase in payment compliance,
                        stating that the percentage was not based on any empirical
                        data. The Commissioner also did not agree that sending
                        reminder notices to taxpayers assessed estimated tax
                        penalties would reduce collection costs by $12.9 million
                        over 5 years, stating that, based on the results of the FTD
                        “soft letter” study, there would be no collection cost savings
                        and that our estimate did not reflect the administrative cost
                        of adding a midyear reminder notice.
                        Office of Audit Comment: We believe the concept of a
                        midyear reminder notice to taxpayers that have stopped
                        making estimated tax payments should, at a minimum, be
                        tested. The Commissioner, SB/SE Division, cited the
                        results of an FTD “soft letter” project as evidence that a
                        reminder notice would have little or no impact on estimated

                                                                                Page 29
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                        tax payment compliance. However, the IRS’ own final
                        report, dated March 2003, on the results of that project
                        recommended “further study about the effectiveness of the
                        ‘soft letter’ as an early intervention tool to improve filing
                        and payment compliance may be warranted.” Further, the
                        report on the FTD “soft letter” project stated sending a “soft
                        letter” to the taxpayer helped to “winnow out” earlier in the
                        collection pipeline some cases that did not need further
                        contact. Finally, the FTD “soft letter” was directed to
                        businesses responsible for paying employment taxes. This
                        customer segment significantly differs from individual
                        taxpayers that are responsible for making estimated tax
                        payments on their nonwage income.
                        While the Commissioner, SB/SE Division, is correct that
                        there are no empirical data to support our assumption that a
                        midyear reminder notice would improve payment
                        compliance by 25 percent, our estimate that penalties and
                        interest could be reduced by $412.7 million per year, or
                        $2.1 billion over 5 years, was based on 285,400 taxpayers
                        becoming payment compliant. These 285,400 taxpayers
                        represented only about 5 percent of the 5.7 million
                        noncompliant taxpayers that incurred estimated tax penalties
                        in TY 1998. Similarly, our estimate of the cost savings that
                        could be realized through a 25 percent improvement in
                        payment compliance was based on avoiding collection
                        action on approximately 204,000 taxpayers. Our estimate of
                        the collection cost savings was reduced by the estimated
                        cost to mail the reminder notices. Our methodology in
                        arriving at these estimates is presented in detail in
                        Appendix IV.
                        To improve compliance by promoting electronic payment
                        options for making estimated tax payments, the Director,
                        Taxpayer Education and Communication, SB/SE Division,
                        should:
                        5. Consider including Tax Form 9783 in the estimated tax
                           packages mailed to taxpayers, expanding the brief
                           explanation of the EFTPS in Publication 505, and
                           amending those IRS instructions and publications
                           applicable to estimated tax payments that do not

                                                                              Page 30
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                           sufficiently emphasize the EFTPS is offered to taxpayers
                           as a free service by the Department of the Treasury.
                        Management’s Response: The Commissioner, SB/SE
                        Division, agreed with this recommendation, stating an
                        E-Submissions Messaging Team was created in
                        August 2003 to ensure information concerning IRS payment
                        options is available and consistent in IRS tax products. The
                        group is currently reviewing small business publications,
                        notices, and IRS tax packages to ensure electronic payment
                        options are displayed prominently and EFTPS benefits and
                        uses are specifically detailed. The proper messages
                        emphasize the EFTPS as the preferred payment option and
                        highlight it as a “free” service offered by the Department of
                        the Treasury.
                        This group will continue to review new ways to enhance
                        Form 1040-ES taxpayer compliance. Proposals under
                        consideration include 1) adding a coded Form 9783 in the
                        U.S. Individual Income Tax Return (Form 1040) tax
                        package to track the number of enrollments submitted
                        through the paper enrollment process, and 2) providing an
                        information insert describing the benefits and use of the
                        EFTPS and directing taxpayers to the applicable web site for
                        electronic enrollment.




                                                                             Page 31
             While Progress Toward Earlier Intervention With Delinquent Taxpayers
              Has Been Made, Action Is Needed to Prevent Noncompliance With
                            Estimated Tax Payment Requirements

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

Our objective was to determine if the Internal Revenue Service (IRS) has effective processes for
achieving timely intervention when an underpayment or nonpayment of income taxes, Federal
Tax Deposits1 (FTD), and/or estimated taxes2 is identified.
To meet this objective, we:
I.      Evaluated the use of outbound calls and timely intervention activities performed by the
        Automated Collection System (ACS) function.3
        A.       Evaluated the types of cases worked at the ACS call sites and determined whether
                 management believes the early intervention method may not be productive.
        B.       Analyzed the types of cases for which the ACS function makes outbound calls
                 and determined whether the outbound calls are successful in collecting funds and
                 closing cases.
        C.       Obtained and analyzed the entire population of 1,136 cases from an “ACS Over
                 $25,000 Case Analysis Study” completed by the Wage and Investment Division
                 to compare the cases closed by the ACS function with outbound calls and the
                 cases closed without outbound calls.
        D.       Determined the status of the Small Business/Self-Employed Division’s Collection
                 Process Improvement study that addresses the use of the predictive dialer as a
                 method for working more ACS function cases.
        E.       Evaluated the feasibility of the predictive dialer process to perform additional
                 outbound calls for the ACS function.




1
  Employers are required to regularly deposit the income taxes withheld from their employees’ earnings, as well as
the employer and employee share of Social Security and Medicare taxes, with a financial institution that is an
authorized depositary for Federal taxes. A business’ deposit schedule for a calendar year is determined annually
from the total taxes reported on Employer’s Quarterly Federal Tax Returns (Form 941) in a 4-quarter lookback
period beginning on July 1 from 2 years earlier and ending on June 30 of the prior year.
2
  Estimated tax is the method used to pay taxes on income not subject to withholding. The payments are generally
required on a quarterly basis.
3
  The ACS function is a computerized inventory system that maintains certain balance due accounts and return
delinquency investigations. It is located at 14 call sites in the Small Business/Self-Employed and Wage and
Investment Divisions.
                                                                                                           Page 32
              While Progress Toward Earlier Intervention With Delinquent Taxpayers
               Has Been Made, Action Is Needed to Prevent Noncompliance With
                             Estimated Tax Payment Requirements

         F.       Analyzed the status of the Business Systems Modernization project for Filing and
                  Payment Compliance that includes a model to shorten the payment compliance
                  life cycle.
II.      Evaluated the effectiveness of the FTD Alert Program that is designed to prevent
         delinquencies for small business taxpayers.
         A.       Identified the objectives and goals of the FTD Alert Program and determined
                  whether there is a system to measure Program results.
         B.       Evaluated the status of IRS management’s corrective actions for five audit
                  recommendations on FTD Alerts contained in an audit report issued by the former
                  IRS Inspection function (Service Procedures for Monitoring Federal Tax
                  Deposits (Reference Number 085105, dated August 14, 1998)).
         C.       Evaluated the status of IRS management’s corrective actions for a
                  recommendation on FTD Alerts contained in an audit report issued by the
                  Treasury Inspector General for Tax Administration (Consolidated Report on
                  Opportunities for the Internal Revenue Service to Improve Service to Business
                  Taxpayers (Reference Number 2000-30-015, dated December 1999)).
         D.       Evaluated the current FTD Alert process and the status of IRS Research Projects
                  on the development and testing of a new FTD Alert model.
         E.       Considered methods to improve the FTD Alert Program, e.g., moving the alerts
                  from the Collection Field function to a predictive dialer for outbound calls.
III.     Evaluated the need for a delinquency prevention program for individual taxpayers
         required to make estimated tax payments.
         A.       Identified the objectives and goals of the estimated tax program.
         B.       Analyzed an IRS Individual Master File (IMF)4 extract of all Tax Year 1998
                  individual income tax accounts for which the taxpayers had (1) filed a return after
                  its Calendar Year (CY) 1999 due date or (2) filed a timely return in CY 1999 but had
                  not paid all taxes due by the regular April 15 return due date. The extract identified
                  2,025,189 taxpayers that were assessed the estimated tax penalty.5
         C.       Considered methods to improve the estimated tax process, such as sending
                  reminder notices to previous estimated tax filers if they do not make any
                  estimated tax payments in the first two payment periods and/or making outbound
                  calls to these taxpayers.

4
 The IMF is the IRS database that stores transactions or records of individual tax accounts.
5
 Due to the selection criteria used for the IMF extract, the results from the analysis of 2,025,189 accounts cannot be
projected to the universe of 5.7 million taxpayers assessed estimated tax penalties.
                                                                                                             Page 33
             While Progress Toward Earlier Intervention With Delinquent Taxpayers
              Has Been Made, Action Is Needed to Prevent Noncompliance With
                            Estimated Tax Payment Requirements

IV.     Evaluated early intervention programs employed by state tax agencies.
        A.       Sent questionnaires to nine6 state governments to inquire about their collection
                 techniques and early intervention practices.
        B.       Evaluated the six7 questionnaire responses received and determined whether there
                 are best practices that would benefit the IRS operations.




6
  Questionnaires were sent to the California, Connecticut, Illinois, Michigan, New Jersey, New York, Ohio,
Pennsylvania, and South Carolina state governments.
7
  Questionnaire responses were received from the Illinois, Michigan, New Jersey, New York, Ohio, and
Pennsylvania state governments.




                                                                                                             Page 34
          While Progress Toward Earlier Intervention With Delinquent Taxpayers
           Has Been Made, Action Is Needed to Prevent Noncompliance With
                         Estimated Tax Payment Requirements

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
William E. Stewart, Audit Manager
Theodore J. Lierl, Senior Auditor
Robert A. Nicely, Senior Auditor
Marcus D. Sloan, Auditor
Marjorie A. Stephenson, Auditor
Robert J. Carpenter, Computer Specialist
Layne D. Powell, Computer Specialist




                                                                                       Page 35
         While Progress Toward Earlier Intervention With Delinquent Taxpayers
          Has Been Made, Action Is Needed to Prevent Noncompliance With
                        Estimated Tax Payment Requirements

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Director, Business Marketing Services, Small Business/Self-Employed Division SE:S:T
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Deputy Director, Compliance Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 36
            While Progress Toward Earlier Intervention With Delinquent Taxpayers
             Has Been Made, Action Is Needed to Prevent Noncompliance With
                           Estimated Tax Payment Requirements

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Taxpayer Rights and Entitlements – Potential; $412.7 million; over 5 years, $2.1 billion
         in reduced penalty and interest assessments against taxpayers currently being assessed
         estimated tax penalties (see page 9).
    •    Inefficient Use of Resources – Potential; $2.6 million; over 5 years, $12.9 million in
         reduced collection costs for the Internal Revenue Service (IRS) by improving payment
         compliance through the development of a midyear reminder notice for estimated tax
         payments (see page 9).
Methodology Used to Measure the Reported Benefit:
We analyzed an IRS Individual Master File (IMF)1 extract that included all Tax Year (TY) 1998
individual income tax accounts for which the taxpayers had (1) filed a return after its Calendar
Year (CY) 1999 due date or (2) filed a timely return in CY 1999 but had not paid all taxes due by
the regular April 15 return due date. This extract identified 2,025,189 taxpayers that were
assessed the estimated tax penalty. The following methodologies were used to estimate the
reported benefits:
Taxpayer Rights and Entitlements: We analyzed all 2,025,189 taxpayer accounts extracted
from the universe of 5.7 million taxpayers assessed estimated tax penalties. Our analysis showed
1,141,599 of the 2,025,189 taxpayers could have benefited from midyear reminder notices from
the IRS as a potential means for improving payment compliance and reducing collection costs.2
We assumed a 25 percent improvement in payment compliance from the reminder notice and
determined these taxpayers could avoid $412.7 million in penalties and interest.




1
  The IMF is the IRS database that stores transactions or records of individual tax accounts.
2
  The remaining 883,590 taxpayers generally did not meet the criteria for receiving the annual mail-out of estimated
tax packages.
                                                                                                            Page 37
               While Progress Toward Earlier Intervention With Delinquent Taxpayers
                Has Been Made, Action Is Needed to Prevent Noncompliance With
                              Estimated Tax Payment Requirements

As shown in Table 1, these 1,141,599 taxpayers were assessed nearly $1.7 billion in penalties
and interest for TY 1998:
                    Table 1: Total Penalty and Interest Assessments on Selected Taxpayers

                       Assessment                                                 Amount
    Failure to Pay Penalty                                                   $    299,290,163
    Estimated Tax Penalty                                                         412,302,451
    Accrued Penalty                                                               207,345,154
    Interest                                                                      446,318,951
    Accrued Interest                                                              285,584,279
                         Total                                                $1,650,840,998
Source: The Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS Master File data.

Assuming that sending midyear estimated tax payment reminder notices potentially would result
in a 25 percent improvement in taxpayer payment compliance, the reduced penalty and interest
would be $412,710,250 ($1,650,840,998 X .25) per year, or nearly $2.1 billion over 5 years for
285,400 taxpayers (1,141,599 X .25).3 The estimated outcomes are based on achieving payment
compliance by only 5 percent (285,400/5.7 million) of the taxpayers assessed estimated tax
penalties.
Inefficient Use of Resources: We analyzed 2,025,189 taxpayer accounts from the universe of
5.7 million taxpayers assessed estimated tax penalties. Our analysis indicated 1,141,599 of the
2,025,189 taxpayers could have benefited from midyear reminder notices from the IRS as a
potential means to prevent or minimize future estimated tax penalties, future balance due returns,
and future accounts receivable.4 These included:
      •   603,533 taxpayers that were assessed estimated tax penalties for TY 1997 but made no
          estimated tax payments for TY 1998.



3
  Due to the selection criteria used for the IMF extract, the potential avoidance of penalty and interest from an
estimated tax reminder notice cannot be projected to the universe of 5.7 million taxpayers assessed estimated tax
penalties. All estimated avoidance of penalty and interest is limited to the 1,141,599 taxpayers identified in our
analysis that we believe could have benefited from a midyear reminder notice. Assuming a 25 percent improvement
in taxpayer compliance from a midyear reminder notice, 285,400 taxpayers (1,141,599 X .25) would be affected.
Thus, the estimated outcomes are based on achieving payment compliance by only 5 percent (285,400/5.7 million)
of all taxpayers assessed estimated tax penalties.
4
  The remaining 883,590 taxpayers generally did not meet the criteria for receiving the annual mail-out of estimated
tax packages.
                                                                                                           Page 38
             While Progress Toward Earlier Intervention With Delinquent Taxpayers
              Has Been Made, Action Is Needed to Prevent Noncompliance With
                            Estimated Tax Payment Requirements

      •   111,913 taxpayers that made estimated tax payments for TY 1997 but made none for
          TY 1998.
      •   154,731 taxpayers that made substantially smaller estimated tax payments for
          TY 1998 than for TY 1997.
      •   271,422 taxpayers that made untimely estimated tax payments for TY 1998.
Our analysis showed 324,928 of the 1,141,599 taxpayers fully paid their taxes when they filed
their returns, and the IRS subsequently sent 1 or more collection notices for delinquent taxes
and/or penalties and interest to the remaining 816,671 taxpayers. In addition, the accounts of
143,497 taxpayers eventually reached the Taxpayer Delinquent Account5 (TDA) status in the
Automated Collection System (ACS)6 function inventory, and 26,580 of these were ultimately
referred to the Collection Field function (CFf) for resolution.
Table 2 shows our estimate of the IRS collection costs7 on these 816,671 taxpayer accounts:
                                      Table 2: Estimated Collection Costs
          Category                   Number                      Unit Cost             Total Estimated Cost

    Collection Notices               646,594                     $    2.02                 $ 1,306,120
    ACS TDAs                         143,497                         14.44                    2,072,097
    CFf TDAs                          26,580                         291.10                   7,737,438
           Total                     816,671                                               $11,115,655
Source: TIGTA analysis of IRS Master File data and IRS cost data.




5
  A TDA involves unpaid taxes, penalties, and/or interest on a tax return that has been filed.
6
  The ACS function is a computerized inventory system that maintains certain balance due accounts and return
delinquency investigations. It is located at 14 call sites in the Small Business/Self-Employed (SB/SE) and Wage
and Investment (W&I) Divisions.
7
  The estimated IRS collection costs for notices, ACS TDAs, and CFf TDAs were based on an average of the
SB/SE Division’s costs and the W&I Division’s costs, as shown in the Business Systems Modernization Prime
Program Tax Administration Modernization Filing and Payment Compliance Milestone 2/3 Organizational
Transition Plan Appendix (August 19, 2002).
                                                                                                          Page 39
            While Progress Toward Earlier Intervention With Delinquent Taxpayers
             Has Been Made, Action Is Needed to Prevent Noncompliance With
                           Estimated Tax Payment Requirements

Assuming that sending a midyear estimated tax payment reminder notice potentially would result
in a 25 percent improvement in taxpayer compliance, the reduced annual IRS collection costs
would be $2,778,914 ($11,115,655 X .25) for 204,168 taxpayers (816,671 X .25).8 We estimate
the IRS’ mailing costs to send midyear estimated tax payment reminder notices to
1,141,599 taxpayers would be $194,072 (1,141,599 notices @ $.17 each).
The reduced IRS collection costs of $2,778,914 would be offset by increased mailing costs of
$194,072. Thus, the potential net saving would be $2,584,842 per year, or $12.9 million over
5 years.




8
  Due to the selection criteria used for the IMF extract, the potential collection savings from an estimated tax
reminder notice cannot be projected to the universe of 5.7 million taxpayers assessed estimated tax penalties. All
estimated collection cost savings and potential mailing costs are limited to the 1,141,599 taxpayers identified in our
analysis that we believe could have benefited from a midyear reminder notice. We determined 816,671 of these
1,141,599 taxpayers received Collection notices or advanced to TDA status. Assuming a 25 percent improvement in
taxpayer compliance from a midyear reminder notice, 204,168 taxpayers (816,671 X .25) would be affected. Thus,
the estimated outcomes are based on achieving payment compliance by only 4 percent (204,168/5.7 million) of all
taxpayers assessed estimated tax penalties.




                                                                                                             Page 40
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements

                                                                Appendix V


          Management’s Response to the Draft Report




                                                                       Page 41
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 42
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 43
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 44
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 45
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 46
While Progress Toward Earlier Intervention With Delinquent Taxpayers
 Has Been Made, Action Is Needed to Prevent Noncompliance With
               Estimated Tax Payment Requirements




                                                                       Page 47
